Low
I

C@OCKLE

2311 Douglas Street Leoal Briefs E-Mail Address:
Omaha, Nebraska 68102-1214 ga et € on contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-1260
ANDREW DEMMA,
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the SUPPLEMENTAL BRIEF
FOR PETITIONER in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 963 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of September, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

 

‘My Comm. Exp. September 5, 2023

 

GENERAL NOTARY-State of Nebraska
A RENEE J. GOSS Kone 9. klooo Qudraw- he. Chih
Notary Public

Affiant

40170
